               The Reorganized Desktop Support Function
                  Has Not Yet Achieved Planned Goals

                                   January 2004

                       Reference Number: 2004-20-041




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     January 20, 2004


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - The Reorganized Desktop Support Function
                                     Has Not Yet Achieved Planned Goals (Audit # 200320037)


       This report presents the results of our review of the Desktop Support Function. The
       overall objective of this review was to evaluate the efficiency and effectiveness with
       which the End User Equipment and Services (EUES) organization provides desktop
       support.
       Over a period of 18 months, the Modernization and Information Technology Services
       (MITS) organization analyzed the organization, services, and needs of customers to
       develop a reorganization strategy to provide superior customer service and increase
       employee satisfaction. A key component of the reorganization was the establishment of
       the EUES organization to serve as a single point of accountability and ownership for all
       end user support activities including desktop support. The desktop support function
       provides customer support for desktop and laptop users.
       In summary, the desktop support function has done an effective job monitoring and
       managing the high-priority1 workload to ensure timely customer support. Management
       monitors daily and monthly reports and has weekly meetings to discuss the problem
       ticket workload. As a result, the desktop support function is approaching its Master
       Service Level Agreement (MSLA)2 goal to resolve 80 percent of the high-priority tickets
       within the established time period. Additional actions could further improve the
       efficiency and effectiveness of the EUES organization to provide desktop support.



       1
        Problem tickets that must be addressed in 8 hours or less.
       2
        The MSLA is a comprehensive agreement between the MITS organization and the Internal Revenue Service (IRS)
       business organizations and functional units; it defines the information technology services and service levels to be
       provided by the MITS organization to these other IRS components.
                                                        2


Placement of employees into the new EUES organization has proved difficult. As of
August 8, 2003, 110 desktop support function employees could not be placed into the
new organization because their skills, grade level, and post-of-duty did not match the
new organization’s needs. However, as a result of an Internal Revenue Service (IRS)
management decision, these 110 employees became permanent employees in their
current positions and posts-of-duty effective August 10, 2003. As of November 4, 2003,
86 of these 110 employees continued to work in the desktop support function. The
placement of these employees in the EUES organization will affect the efficiency of the
desktop support program, as the IRS will spend approximately $5.6 million on desktop
support function employees that do not fully satisfy the needs of the new organization.
Several new service delivery models (SDM) have not been completely deployed.3 Many
of the Rapid Fix and Delivery (RFD) sites have not been implemented because
additional resource requirements such as space, equipment, and funding have not been
secured. As a result, some of the most efficient and “customer-friendly” SDMs planned
in the reorganization have not been implemented. Also, as of July 31, 2003, the
Contractor SDM was largely unused because the selection of a contract to obtain
support was not made until June 2003, over 6 months after stand-up of the desktop
support function. As a result, employees were inefficiently sent from one office to
another to fix problems that were supposed to be resolved by contractors.
Operating assumptions used in the reorganization design of the desktop support
function have not been fulfilled by other functions within the EUES organization. For
example, funding cuts in the Hardware Refreshment Program (HRP)4 resulted in
unanticipated hardware maintenance work for the desktop support function, service
level improvements expected from the Enterprise Service Desk (ESD) have not been
realized because Subject Matter Experts (SME)5 have not been employed, and the
Tivoli®6 remote control capability is not functioning. In addition, the Tivoli® rollout did
not achieve anticipated benefits in areas such as automated application distribution and
computer inventory management. As a result, desktop support function employees
must manually assist in new application implementation and equipment inventorying
rather than resolve problem tickets.
Lastly, although management collects performance results for the desktop support
function, they do not report results specific to desktop support groups. Without
reporting specific results, the desktop support function may not identify opportunities for
improving performance and optimization of resources. In addition, without measuring


3
  See Appendix V for a description of the SDMs.
4
  The HRP is the IRS-wide initiative to routinely replace aging personal computers with state-of-the-market
equipment on a continuing refreshment cycle that is currently 3 years.
5
  SMEs are enterprise-wide specialists that can be connected to customers via the ESD to provide expertise in given
subjects for problem resolution.
6
  Tivoli® is a registered trademark owned by IBM. Tivoli® is a suite of software products used to improve the
management and control of computer resources. Tivoli® functions include software distribution, inventory
management, remote control over personal computers, security administration, user administration, and web services
management.
                                           3


satisfaction with the desktop support function’s products and services, management has
no assurance that they are timely and effectively meeting the needs of their customers.
We recommended that the Chief Information Officer reassess the desktop support
function’s staffing needs from an efficiency perspective and take appropriate personnel
actions, complete all site-specific implementation plans and assess and obtain the
resources needed to complete implementation of the RFD SDM, and take actions to
help the desktop support program accomplish its goals and resolve program
dependency issues. In addition, the Director, EUES, should assess the problem ticket
workload by site and adjust the SDM and/or staffing accordingly, ensure the MSLA
performance results summarize data for each group that provides support, enhance the
customer satisfaction survey process to measure customer satisfaction with the
products and services, and require the completion of data fields used to evaluate SDM
use.
Management’s Response: IRS management agreed with the recommendations
presented in this report. Planned corrective actions include conducting workload and
staffing analyses of the desktop support function and modifying the SDM and/or staffing
accordingly, completing implementation plans and obtaining the necessary resources to
complete implementation of the RFD SDM, and working within budgetary guidelines to
ensure that the HRP is carried out and that the ESD fills SME positions and has Tivoli®
remote access capabilities. Management also plans to enhance the customer
satisfaction survey process and modify the Information Technology and Asset
Management System so that the Primary and Resolution SDM fields are required data
elements. Management’s complete response to the draft report is included as
Appendix VIII.
Office of Audit Comment: Management took exception to the measurable impact that
our recommended corrective actions will have on tax administration of approximately
$5.6 million in inefficient use of resources. We recognize there may have been
budgetary circumstances that limited management’s ability to take the appropriate
personnel actions; however, our review is reporting the cost of the inefficiency in
operations at the time.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                 Table of Contents


Background ............................................................................................... Page 1
Management of High-Priority Problem Ticket Inventories
Has Improved ............................................................................................ Page 3
Staffing and Resource Issues Are Affecting Program Delivery.................. Page 5
         Recommendations 1 and 2: ......................................................... Page 10
         Recommendation 3: ..................................................................... Page 11

Dependencies on Other Programs Are Affecting the
Desktop Support Program ......................................................................... Page 11
         Recommendation 4: ..................................................................... Page 14

Collection of Management Information Is Improving, Although
It Needs to Be More Complete .................................................................. Page 15
         Recommendation 5: ..................................................................... Page 16
         Recommendations 6 and 7: ......................................................... Page 17

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 18
Appendix II – Major Contributors to This Report........................................ Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures ............................................................ Page 21
Appendix V – Service Delivery Models...................................................... Page 23
Appendix VI – Helpdesk Ticket Priority Codes .......................................... Page 25
Appendix VII – Problem Ticket Resolution Timeliness Details................... Page 26
Appendix VIII – Management’s Response to the Draft Report .................. Page 27
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                Over a period of 18 months, the Modernization and
Background
                                Information Technology Services (MITS) organization
                                analyzed the organization, services, and needs of customers
                                to develop a reorganization strategy to provide superior
                                customer service and increase employee satisfaction. A key
                                component of the reorganization was the establishment of
                                the End User Equipment and Services (EUES) organization
                                within the Information Technology Services (ITS)
                                organization, to serve as a single point of accountability and
                                ownership for all end user support activities including
                                desktop support.
                                In July 2002, the Internal Revenue Service (IRS) announced
                                that the MITS reorganization had been approved. The
                                structure and staffing level for the EUES organization was
                                determined by the EUES Re-Tune (Reorganization) Study,
                                which was completed in August 2002. According to the
                                Study, the recommended EUES reorganization model was
                                based on a top-down analysis and modeled after a large
                                enterprise Information Technology (IT) organization
                                structure. The approach taken by the Re-Tune Study
                                consisted of establishing the customer base, developing
                                customer segments and delivery models, and designing the
                                organization.
                                Although the new EUES organization began operations on
                                October 20, 2002, the new desktop support program was not
                                implemented until December 29, 2002. The desktop
                                support function includes customer support for desktop and
                                laptop users, such as acquisition, installation and repair of
                                hardware and software, configuration management and
                                version control, antivirus activity, and software back-ups.
                                Under the reorganization, the five Area Offices were
                                reduced to three, campus and field IT offices were
                                combined, and seven Territory Offices1 were established in
                                each of the Area Offices. Several desktop support function
                                groups have been established in each Territory Office. The

                                1
                                 EUES resources are allocated over three geographically organized
                                Area Offices (i.e., Northeast, Southeast, and Western). Each Area has
                                7 Territories (21 total Territories) that serve segments of the Area.
                                Campuses are the data processing arm of the IRS that process paper and
                                electronic submissions, correct errors, and forward data to the
                                computing centers for analysis and posting to taxpayer accounts.
                                                                                               Page 1
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            Fiscal Year (FY) 2003 budget for the EUES organization is
                            $370 million for 3,171 employees, 1,061 of whom staff the
                            desktop support function.
                            The reorganization also included the establishment of the
                            Enterprise Service Desk (ESD), which consolidated
                            18 helpdesks into 6 physical locations under an Eastern and
                            a Western Service Desk manager. The objective of the ESD
                            is to improve the quality, consistency, and efficiency of
                            service to all IRS customers. The ESD provides the initial
                            level of support to those customers. Customer problems
                            that the ESD cannot resolve are forwarded to the desktop
                            support function for resolution.
                            Seven service delivery models (SDM)2 were developed to
                            provide desktop support to IRS employees. The SDMs
                            include:
                                  •    Appointment with ITS – ITS onsite support staff has
                                       a specific appointment at an IRS site or a taxpayer
                                       site (e.g., large corporation office where the IRS is
                                       conducting an examination) to provide customer
                                       support.
                                  •    Contractor – Customer support will be provided by a
                                       contractor instead of an ITS employee.
                                  •    Dispatch – ITS onsite support staff will go to an IRS
                                       site within 25 miles of their sites to provide
                                       customer support.
                                  •    Drop Ship – Replacement or loaner equipment will
                                       be shipped to customers who cannot receive
                                       in-person support due to location or other
                                       circumstances such as contract arrangements with
                                       vendors. Equipment installation support is provided
                                       by telephone.
                                  •    Onsite support – ITS support staff will be located in
                                       IRS sites with more than 100 employees.
                                  •    Rapid Fix and Delivery (RFD) – Employees bring
                                       equipment to a specialized site for service,
                                       replacement, or upgrade.


                            2
                                See Appendix V for a description of the SDMs.
                                                                                      Page 2
     The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                     •   Scheduled Visit – ITS onsite support staff travel on a
                                         regular schedule to IRS sites more than 25 miles
                                         from their sites with more than 50 and fewer than
                                         100 employees.
                                 The IRS studied its operations and determined which SDM
                                 would most effectively serve IRS employees at each site.
                                 EUES organization management is overseeing efforts to
                                 implement the SDMs by October 2004.
                                 Audit work was conducted at the EUES Headquarters in
                                 New Carrollton, Maryland; the EUES offices in
                                 Atlanta, Georgia; San Francisco, California; and
                                 Philadelphia, Pennsylvania; and the Memphis IRS Campus
                                 in Memphis, Tennessee, from February 2003 to
                                 October 2003. The audit was conducted in accordance with
                                 Government Auditing Standards. Detailed information on
                                 our audit objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 The Department of the Treasury Directive (TD) 40-04,
Management of High-Priority
                                 Treasury Internal (Management) Control Program, states
Problem Ticket Inventories Has
                                 that the Congress, Office of Management and Budget
Improved
                                 (OMB), and General Accounting Office have directed
                                 attention to the need for agencies to establish and maintain
                                 sound management control systems as a primary means of
                                 providing greater accountability, effectiveness, and
                                 efficiency in achieving program goals and objectives and in
                                 preventing fraud, waste, and mismanagement.
                                 The Draft Internal Revenue Manual, Corporate Problem
                                 Management Standards, establishes that the workflow tool
                                 for reporting and tracking all MITS organization customer
                                 problems and service requests (via problem tickets) is the
                                 Information Technology and Asset Management System
                                 (ITAMS).3 It also states that each reported problem will be
                                 given a priority code (i.e., Priority Codes 1 through 5)
                                 according to the severity of the problem4 and the time period

                                 3
                                   The ITAMS is the database management system that controls the
                                 problem ticket inventory.
                                 4
                                   See Appendix VI for descriptions of priority codes. Priority Code 1
                                 represents the most severe problems, and Priority Code 5 represents the
                                 least severe.
                                                                                                 Page 3
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            within which the problem should be resolved according to
                            the Master Service Level Agreement (MSLA).5 Problem
                            tickets that are not resolved within the time period
                            associated with the priority code are considered aged or past
                            due.
                            Overall, the desktop support function has done an effective
                            job monitoring and managing the high-priority6 workload to
                            ensure timely customer support. The desktop support
                            function emphasizes the monitoring of Priority Codes 1 and
                            2 problem tickets as the ITAMS generates daily alert
                            notices, and management is informed about the status of the
                            tickets until they are closed. EUES organization
                            management uses daily inventory reports to monitor the
                            problem ticket workload, uses monthly reports to identify
                            the number of aged tickets, and participates in weekly
                            meetings to discuss the entire problem ticket inventory.
                            The EUES organization is currently implementing a quality
                            assurance process to ensure accuracy and consistency in the
                            data recorded in the problem tickets. The process will focus
                            on performing quality reviews of ticket contents as well as
                            identifying both systemic and procedural processes affecting
                            efficiency or effectiveness of the EUES workflow
                            management and making recommendations for proposed
                            modifications.
                            Our analysis of the nationwide ITAMS problem ticket
                            inventory for the months January through August 2003
                            determined that the desktop support function received a total
                            of 188,000 problem tickets, with 859 of the tickets
                            representing Priority Codes 1 and 2 tickets (i.e., those
                            involving mission critical work stoppages). Table 1
                            provides a summary of the timely resolution rates for
                            Priority Codes 1 and 2 over the first 8 months of 2003.




                            5
                              The MSLA is a comprehensive agreement between the MITS
                            organization and the IRS business organizations and functional units; it
                            defines the IT services and service levels to be provided by the MITS
                            organization to these other IRS components.
                            6
                              Problem tickets that must be addressed in 8 hours or less.
                                                                                             Page 4
       The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                       Table 1: High-Priority Problem Ticket Resolution Timeliness
                                                         January – August 20037
                                                             Percentage of Tickets Resolved on Time
                                             Month            Priority Code 1        Priority Code 2
                                             2003            (Resolved Within       (Resolved Within
                                                                 4 hours)               8 hours)
                                             January                64%                    48%
                                            February                77%                    56%
                                              March                 67%                    51%
                                              April                 85%                    67%
                                               May                  79%                    69%
                                               June                 79%                    70%
                                               July                 79%                    72%
                                             August                 83%                    79%
                                              Totals                77%                    61%
                                        Source: The ITAMS.

                                   EUES organization management efforts since reorganization
                                   have resulted in continued improvements in the timely
                                   resolution of high-priority problem tickets and the desktop
                                   support function approaching its goal to resolve 80 percent
                                   of the high-priority tickets within the time period
                                   established in the MSLA.
                                   The Information Technology Management Reform Act of
Staffing and Resource Issues Are
                                   19968 (also called the Clinger-Cohen Act) requires
Affecting Program Delivery
                                   executive agencies to promote the effective and efficient
                                   operation of major information resources. OMB
                                   Circular A-130, Management of Federal Information
                                   Resources, states that agencies should seek opportunities to
                                   improve the effectiveness and efficiency of Federal
                                   Government programs through work process redesign and
                                   the judicious application of information technology.

                                   7
                                     See Appendix VII for additional details.
                                   8
                                     Clinger-Cohen Act of 1996 (Federal Acquisition Reform Act of 1996)
                                   (Information Technology Management Reform Act of 1996), Pub. L.
                                   No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C.,
                                   5 U.S.C. app., 10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C.,
                                   28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C.,
                                   42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                   Page 5
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            The Modernization, Information Technology, and Security
                            Services Strategy and Program Plan FY 2003-2004 presents
                            a strategy to significantly improve its customer care
                            capability and delivery for all IRS locations and end users.
                            This strategy includes implementing a reorganized customer
                            support field structure that includes rapid fix and
                            deployment capabilities that will reduce the time end users
                            are nonproductive due to equipment failure or loss. The
                            MITS organization plans to accomplish this strategy by
                            designing and delivering a new SDM and reorganizing and
                            training its service delivery team.
                            While the reorganized desktop support program was
                            implemented on December 29, 2002, the program’s
                            efficiency and effectiveness have been significantly affected
                            by several factors.
                            The EUES organization has employees without the
                            required skills, at the wrong grade level,9 and in the
                            wrong locations
                            The EUES reorganization defined the positions and skills
                            needed to accomplish the anticipated workload in the new
                            desktop support function. Employees from the original
                            desktop support function whose skills, grade level, and
                            post-of-duty matched the new organization’s needs were
                            placed in the new organization. However, completing the
                            placement of employees into the new organization has
                            proven difficult.
                            As of August 8, 2003, 110 desktop support function
                            employees could not be placed into the new organization.
                            For example, in 1 Territory Office there were 15 former
                            mainframe administrators and operators working in desktop
                            support. This Territory Office also has several Grade GS-11
                            technicians performing Grade GS-9 work because they
                            could not be permanently placed in the new organization.
                            However, as a result of an IRS management decision, on
                            August 10, 2003, the 110 employees became permanent


                            9
                              A grade level is the numerical designation in the Office of Personnel
                            Management’s General Schedule (GS) (e.g., GS-1 through GS-15) that
                            identifies the range of difficulty and responsibility and the level of
                            qualification requirements of positions.
                                                                                             Page 6
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            employees in their current positions and posts-of-duty. As
                            of November 4, 2003, 86 of the 110 employees continued to
                            work in the desktop support function. The placement of
                            these employees in the EUES organization will affect the
                            efficiency of the desktop support program. In addition, the
                            IRS will spend approximately $5.6 million on desktop
                            support function employees that do not fully satisfy the
                            needs of the new organization. In addition to the
                            86 employees without the correct combination of skills,
                            grade level, and post-of-duty, the new organization still has
                            137 vacancies that have been difficult to fill.
                            Implementing the reorganization’s staffing structure was
                            difficult because management standardized the grade level
                            for positions across campus and field offices, resulting in
                            some positions being graded at a lower level after the
                            reorganization. The higher-graded employees formerly in
                            those positions did not get placed in the lower-graded
                            positions. Also, management changed the job series for
                            some positions, so employees who wanted the positions did
                            not have the backgrounds to qualify for them. EUES
                            organization management also cited unanticipated volumes
                            of personnel actions and an inefficient placement and hiring
                            process as key contributors to the delays in implementing
                            the reorganization.
                            Additionally, a current competitive sourcing10 initiative may
                            significantly affect the future of the EUES ESD and desktop
                            support functions. The current organization was designed
                            for better customer service through the redeployment of
                            existing resources. IRS management indicated that the
                            Federal Government’s bid for the competition would
                            emphasize a more efficient organization, which increases
                            the likelihood of additional staffing changes in the future.
                            On October 6, 2003, the Chief Information Officer (CIO)




                            10
                              Competitive sourcing is an acquisition process that compares private
                            sector and Federal Government bids to determine the most cost-effective
                            way to “buy” services.
                                                                                           Page 7
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            announced that the current seat management11 study was
                            being delayed and modified to include evaluating the
                            end-to-end services and a MITS-wide rollout.
                            New SDMs have not been fully implemented
                            The EUES reorganization included the implementation of
                            several SDMs, or methods for providing a second level of
                            customer support beyond that provided through the ESD.
                            Many of the traditional SDMs historically used for support,
                            such as Onsite Support, Dispatch (of support personnel),
                            and Scheduled Visit With ITS (personnel), have been
                            implemented. However, several new SDMs have not been
                            completely deployed. For example, many of the RFD sites
                            have not been implemented because additional resource
                            requirements such as space, equipment, and funding have
                            not been secured. Management has not yet determined the
                            amount of the MITS organization’s $1.6 billion budget that
                            will be needed to complete the RFD SDM implementation.
                            In addition, while management is currently coordinating
                            with local Agency-Wide Shared Services representatives to
                            secure space for the RFDs, they have not developed all of
                            the site-specific plans for completing the RFD SDM
                            deployment. As a result, some of the most efficient and
                            “customer-friendly” SDMs planned in the reorganization
                            have not been implemented.
                            Also, the Contractor SDM is planned to support 333 IRS
                            field sites. However, as of July 31, 2003, this SDM was
                            largely unused because selection of a specific contract to be
                            used for the Contractor SDM was not made until June 2003,
                            6 months after stand-up of the desktop support function, and
                            procedures for using the SDM had not been developed. In
                            the interim, management used personnel slated to provide
                            Onsite Support and Dispatch SDMs to support these sites.
                            As a result, employees were inefficiently sent from one
                            office to another to fix problems that were supposed to be
                            resolved by contractors.

                            11
                              Seat management refers to a sourcing strategy for the administration
                            and operation of the IT products and services (e.g., hardware and
                            software acquisition, installation, administration, network access,
                            customer support, maintenance, training, relocation, refreshment) and
                            incorporates the IRS’ functional and performance requirements within
                            this environment.
                                                                                            Page 8
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            Additionally, dispatched desktop support function
                            employees are unavailable to resolve tickets in their
                            assigned offices while providing support in the field offices,
                            resulting in problem tickets not being timely resolved.
                            Table 2 provides a summary of the timely resolution rates
                            for problem tickets with Priority Codes 3, 4, and 5 (i.e., a
                            work stoppage for 1 customer, a noncritical problem, or a
                            request for nonproduction-related services) over the first
                            8 months of 2003.
                                           Table 2: Problem Ticket Resolution Timeliness
                                                      January – August 200312
                                                     Percentage of Tickets Resolved on Time
                                 Month        Priority Code 3    Priority Code 4 Priority Code 5
                                 2003          (Resolved within    (Resolved within   (Resolved within
                                                   2 days)             4 days)            20 days)
                                 January            54%                 65%                80%
                             February               58%                 65%                79%
                                 March              55%                 64%                81%
                                  April             56%                 65%                75%
                                  May               59%                 67%                81%
                                  June              58%                 67%                83%
                                  July              60%                 70%                83%
                                 August             60%                 69%                84%
                                 Totals             57%                 67%                81%
                            Source: The ITAMS.

                            During the first 8 months of the new program, the desktop
                            support program did not meet the overall resolution
                            timeliness standard of 80 percent, as established in the
                            MSLA, for its Priority Code 3, 4, and 5 problem tickets.
                            In addition, the deployment of the SDMs may need to be
                            adjusted because the anticipated workload and current
                            staffing levels may not be consistent with the assumptions
                            used in initial planning. For example, management stated
                            that in one Territory Office, one support group receives as
                            many problem tickets as the four other support groups
                            combined, but the staffing level for all five groups is


                            12
                                 See Appendix VII for additional details.
                                                                                               Page 9
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            basically the same, resulting in inconsistent customer
                            service.
                            Overall, the IRS has not yet achieved the benefits expected
                            from the reorganization of its desktop support function.
                            Although ticket volumes have increased, the rate of timely
                            resolutions for Priority Codes 3 and 4 problem tickets has
                            not significantly improved since the stand-up of the new
                            organization in December 2002. By not effectively
                            anticipating the reorganization’s impact on staffing and
                            ensuring the availability of required space, equipment, and
                            funding for the deployment of SDMs to support the
                            reorganization, the IRS has used less-efficient work
                            processes that have not significantly improved the timely
                            resolution of customer problems.
                            Management Actions: During the audit, procedures were
                            developed and provided to Area and Territory management
                            for obtaining services via the Contractor SDM.
                            In June 2003, EUES management also implemented a web
                            site that can be used to track the problem ticket inventory
                            and resolution activity by territory. The web site and its
                            functionality have continued to evolve based on feedback
                            from desktop support users. Specific improvements have
                            been made in the timeliness calculations by excluding
                            holidays and weekends and adjusting for current desktop
                            support hours.

                            Recommendations

                            The Director, EUES, should:
                            1. Assess the problem ticket workload by site and adjust
                               the SDM(s) and/or staffing accordingly.
                            Management’s Response: The Director, EUES, will ensure
                            that the Area Directors conduct a workload analysis of the
                            problem ticket activity and adjust the SDM and/or staffing
                            accordingly, based on the outcome and resource availability.
                            The CIO should:
                            2. Reassess the desktop support function’s staffing needs
                               from an efficiency perspective and take appropriate
                               personnel actions.

                                                                                 Page 10
      The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                  Management’s Response: The Director, EUES, will ensure
                                  that the Area Directors conduct a staffing analysis of the
                                  desktop support function to ensure efficiency. Based on
                                  resource availability and staffing guidelines, hiring actions
                                  and other adjustments will be initiated.
                                  Office of Audit Comment: Management took exception to
                                  the measurable impact that our recommended corrective
                                  actions will have on tax administration of approximately
                                  $5.6 million in inefficient use of resources. We recognize
                                  there may have been budgetary circumstances that limited
                                  management’s ability to take the appropriate personnel
                                  actions; however, our review is reporting the cost of the
                                  inefficiency in operations at the time.
                                  3. Complete all site-specific implementation plans and
                                     assess and obtain the resources (i.e., space, equipment,
                                     and funding) needed to complete implementation of the
                                     RFD SDM.
                                  Management’s Response: The Director, EUES, will ensure
                                  that the Area Directors develop, adjust, and/or complete
                                  plans to identify and obtain the necessary resources to
                                  complete implementation of the RFD SDM.
                                  The Information Technology Management Reform Act of
Dependencies on Other Programs
                                  1996 requires executive agencies to promote the effective
Are Affecting the Desktop
                                  and efficient operation of major information resources.
Support Program
                                  OMB Circular A-130 states that agencies should seek
                                  opportunities to improve the effectiveness and efficiency of
                                  Federal Government programs through work process
                                  redesign and the judicious application of information
                                  technology.
                                  Operating assumptions used in the reorganization design of
                                  the desktop support function have not been fulfilled by other
                                  functions within the EUES organization, resulting in
                                  inefficient problem resolution practices and increased
                                  workload for the desktop support function.




                                                                                        Page 11
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            Hardware Refreshment Program (HRP)13
                            Funding cuts of $31.5 million14 in the HRP resulted in
                            unanticipated hardware maintenance work for the desktop
                            support function. Vendor warranties for new hardware were
                            expected to cover such work. Without the hardware
                            replacement, the desktop support function workload is
                            expected to increase as resources are applied to maintain
                            aged or obsolete hardware that business customers expect to
                            run increasingly sophisticated software.
                            In September 2002 we reported,15 “Lengthening the [3-year]
                            replacement process to 4 to 5 years was shown to have
                            significant cost impacts. For example, the additional
                            tangible costs for repairs and upgrades were projected to
                            exceed $74 million under the 4-year scenario and
                            $100 million under the 5-year scenario.” Another impact
                            noted in the report was an increase in user downtime
                            resulting from equipment failures.
                            ESD
                            The target rate for first call resolution (i.e., resolution of the
                            customer’s problem on the initial contact) through the ESD
                            was established at 60 percent after October 2002. The target
                            rate was set after management considered customer demand
                            for password reset assistance. While the ESD has met the
                            60 percent first contact resolution rate when including
                            password resets, more difficult nonpassword reset calls are
                            not being resolved at the 60 percent rate. Consequently,
                            significant improvements in the resolution of other problem
                            types on first contact have not occurred. The target rate for
                            first call resolution in FY 2004 is 85 percent.


                            13
                               The HRP is the IRS-wide initiative to routinely replace aging personal
                            computers with state-of-the-market equipment on a continuing
                            refreshment cycle that is currently 3 years.
                            14
                               The total FY 2003 funding cuts in the HRP were $34 million.
                            However, the HRP Manager was advised that $28 million would be
                            redirected back to the Program by the end of FY 2003. As of
                            October 14, 2003, only $2.5 million of this $28 million had actually
                            been returned to the Program. As a result, the FY 2003 funding cuts
                            realized total $31.5 million.
                            15
                               The Hardware Refreshment Program Is Generally Effective, But
                            Improvements Can Be Made (Reference Number 2002-20-160, dated
                            September 2002).
                                                                                           Page 12
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            Service level improvements for nonpassword reset calls
                            expected from the IRS’ reorganization of its helpdesk
                            function have not been realized for several reasons. For
                            example, ESD assistors are not yet able to employ remote
                            tools to access desktop equipment (discussed below) and
                            resolve problems. In addition, Subject Matter Experts
                            (SME)16 have not been employed for problem tickets
                            because management has been addressing other
                            reorganization staffing issues. The SMEs are envisioned as
                            another means of problem resolution prior to the routing of
                            those tickets to desktop support function personnel. As a
                            result of the less-than-anticipated service levels from the
                            ESD, the desktop support function has worked tickets that
                            were planned to be resolved by SMEs and remote tools.
                            Tivoli® implementation
                            The rollout of Tivoli®17 has not produced anticipated
                            functionality and benefits. Tivoli® was to provide the
                            capability for an ESD assistor to remotely control a
                            customer’s computer and enhance problem diagnosis and
                            resolution on first contact. Tivoli® was also expected to
                            facilitate both the inventorying of IRS hardware and rollout
                            of new software applications. As of July 2003, those
                            anticipated benefits of the Tivoli® project had not been
                            completely fulfilled. As a result, desktop support function
                            employees must manually assist in new application
                            implementation and the equipment inventory process rather
                            than resolve problem tickets.
                            We reported18 on the IRS’ Tivoli® implementation in
                            July 2003, stating:


                            16
                               SMEs are enterprise-wide specialists that can be connected to
                            customers via the ESD to provide expertise in given subjects for
                            problem resolution.
                            17
                               Tivoli® is a registered trademark owned by IBM. Tivoli® is a suite of
                            software products used to improve the management and control of
                            computer resources. Tivoli® functions include software distribution,
                            inventory management, remote control over personal computers,
                            security administration, user administration, and web services
                            management.
                            18
                               The Implementation of Software Products to Manage and Control
                            Computer Resources Needs Improvement (Reference
                            Number 2003-20-151, dated July 2003).
                                                                                           Page 13
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                   The IRS uses the term “endpoint health” to gauge
                                   whether Tivoli® can successfully communicate with
                                   computing devices. The low percentage of endpoint
                                   health, combined with staff not being assigned the
                                   responsibility to resolve endpoint health and
                                   software distribution problems, have resulted in
                                   unrealized efficiencies ranging from approximately
                                   $5.5 million to $7.6 million.
                            However, endpoint health has improved since the issuance
                            of the prior audit report. In addition, EUES organization
                            management indicated that an 80 percent success rate was
                            achieved on a recent software distribution.
                            Although EUES organization management recognizes the
                            impact of these dependencies on the efficiency and
                            effectiveness of the new organization, program adjustments
                            have not been made to address the changes that have
                            occurred since establishing the new organization.

                            Recommendation

                            The CIO should:
                            4. Take actions to help the desktop support program
                               accomplish its goals and resolve program dependency
                               issues by ensuring that:
                               a. The HRP is adequately funded.
                               b. The ESD fills the SME positions in order to resolve
                                  more customer requests without the assistance of
                                  desktop support function technicians.
                               c. Tivoli® provides planned remote access capabilities
                                  to improve the first contact resolution rates.
                            Management’s Response: The Director, EUES, will ensure
                            that the Area Directors work within appropriate budgetary
                            guidelines to ensure that the HRP is carried out and that the
                            ESD fills the SME positions and has Tivoli® remote access
                            capabilities.




                                                                                  Page 14
     The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                 The Government Performance Results Act of 1993
Collection of Management
                                 (GPRA)19 was enacted by the Congress to improve the
Information Is Improving,
                                 efficiency and effectiveness of Federal Government
Although It Needs to Be More
                                 programs by establishing a system to set goals for program
Complete
                                 performance and to measure results. OMB Circular A-123,
                                 Management Accountability and Control, states that
                                 management is responsible for ensuring the programs
                                 achieve their intended results and that the use of resources is
                                 consistent with the agency’s mission. Managers at all levels
                                 should review performance reports, measure results against
                                 targets, and analyze trends. In addition, the Code of Federal
                                 Regulations20 recommends the use of questionnaires and
                                 surveys in determining the customer satisfaction levels and
                                 accomplishments of the operating units within the IRS.
                                 The EUES organization measures the desktop support
                                 program via the MITS organization user support business
                                 results measure (Percent Tickets Resolved on Time), the
                                 ESD Satisfaction Survey, and any complaints/accolades
                                 received from customers. The Percent Tickets Resolved on
                                 Time measure uses ITAMS data to determine the amount of
                                 time between a problem ticket opening and closing to assess
                                 compliance with the IRS’ MSLA.
                                 These measures are consistent with those identified in
                                 industry best practices. However, the IRS Level 2 support
                                 program includes the Desktop, Telecommunications,
                                 Operations, and Integrated Equipment Support groups, 21
                                 and the ticket data currently gathered and reported for this
                                 measure cover all Level 2 support categories. Specific
                                 desktop support group results are not reported.
                                 The MITS organization sends the ESD Satisfaction Survey
                                 to random customers recently receiving services from the


                                 19
                                    Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                                 sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                 20
                                    26 C.F.R. Part 801 (1999), Balanced System for Measuring
                                 Organizational and Employee Performance Within the Internal Revenue
                                 Service.
                                 21
                                    IRS Level 2 support includes system administrators that support file,
                                 print, and email servers; telecommunications specialists that provide
                                 voice and data support to the field; and Integrated Equipment Support
                                 group personnel that provide asset management and other general
                                 support activities.
                                                                                                Page 15
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            ESD. However, the Survey measures overall customer
                            satisfaction with the EUES organization. Management has
                            no assurance that the survey sample includes a relative
                            number of desktop support function customers or
                            determines actual desktop support function customer
                            satisfaction results. Generally, EUES organization
                            management has not established a formal process to
                            measure customer satisfaction with the products and
                            services specifically provided by the desktop support
                            function, its employees, and contractors supporting the
                            Contractor SDM.
                            Also, management has not established a quality assurance
                            process for assessing SDM use and validation of the
                            reorganization plans. The ITAMS tickets include data fields
                            for identifying the SDM that should be used (Primary SDM)
                            and the SDM that was actually used to resolve the ticket
                            (Resolution SDM), but management does not require
                            completion of these fields. As a result, information
                            regarding the use of the SDMs cannot be derived from
                            closed ITAMS tickets, and management cannot determine if
                            adjustments are needed to the planned type of support
                            provided to customers.
                            By not reporting the performance results for specific
                            desktop support groups, the desktop support function will
                            not be able to identify opportunities for improving
                            performance and optimization of resources. In addition,
                            without a formal process to measure customer satisfaction
                            with the products and services specifically provided by the
                            desktop support function, management has no assurance that
                            they are timely and effectively meeting the needs of their
                            customers.

                            Recommendations

                            The Director, EUES, should:
                            5. Ensure that the MSLA performance results included in
                               the ITAMS reports summarize data for each group
                               function that provides Level 2 support (e.g., Desktop,
                               Telecommunications, Operations, and Integrated
                               Equipment Support).


                                                                               Page 16
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                            Management’s Response: The Director, EUES, will ensure
                            that MSLA performance results included in the ITAMS
                            reports are summarized for each group function that
                            provides Level 2 support.
                            6. Enhance the customer satisfaction survey process to
                               measure customer satisfaction with the products and
                               services specifically provided by the desktop support
                               function, its employees, and contractors supporting the
                               Contractor SDM.
                            Management’s Response: The Director, EUES, will ensure
                            that the customer satisfaction survey process is enhanced to
                            measure customer satisfaction with products and services
                            provided by the desktop support function, its employees,
                            and SDM contractors.
                            7. Require that the Primary and Resolution SDM fields be
                               completed in the ITAMS so that SDM use can be
                               assessed and customer support delivery methods can be
                               adjusted as needed.
                            Management’s Response: The Director, EUES, will ensure
                            the ITAMS is modified so that the Primary and Resolution
                            SDM fields are required data elements.




                                                                                 Page 17
       The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to evaluate the efficiency and effectiveness with which
the End User Equipment and Services organization provides desktop support. To accomplish
this objective, we:
I.     Determined the resources that have been allocated to the desktop support function for
       Fiscal Year (FY) 2003. We identified the number and locations of the desktop support
       function groups; authorized staffing, including the contractor support and associated costs;
       and the budgeted Full-Time Equivalents (FTE),1 labor costs, and nonlabor expenditures.
II.    Determined the responsibilities and dependencies of the desktop support function via
       review of the Modernization, Information Technology, and Security Services Strategy and
       Program Plan FY 2003-2004, desktop support function mission statements, and Master
       Service Level Agreement (MSLA).2
III.   Evaluated the performance measurement program established for the desktop support
       function and its employees to assess the accomplishment of its mission and objectives. We
       interviewed management to identify the performance measures, diagnostic indicators, and
       quality assurance process established for the desktop support function, its employees, and
       the new service delivery models (SDM).
IV. Evaluated management’s efforts to implement the SDMs to ensure acceptable customer
    service levels.
V.     Assessed management’s efforts to monitor and manage the workload of the desktop
       support function to ensure timely end user support.




1
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2003, 1 FTE is equal to 2,088 staff hours. For FY 2004, 1 FTE is equal to 2,096 staff
hours.
2
  The MSLA is a comprehensive agreement between the Modernization and Information Technology Services
(MITS) organization and the Internal Revenue Service (IRS) business organizations and functional units; it defines
the information technology services and service levels to be provided by the MITS organization to these other IRS
components.




                                                                                                           Page 18
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Myron Gulley, Senior Auditor
Anthony Knox, Senior Auditor
Olivia Jasper, Auditor
Kim McManis, Auditor




                                                                                         Page 19
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                      Appendix III


                             Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Information Technology Services OS:CIO:I
Director, End User Equipment and Services OS:CIO:I:EU
Acting Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Chief, Information Technology Services OS:CIO:I
    Director, End User Equipment and Services OS:CIO:I:EU
    Manager, Program Oversight and Coordination OS:CIO:R:PM:PO




                                                                           Page 20
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                                          Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
Inefficient Use of Resources – Actual; $5,577,572 (see page 5).
Methodology Used to Measure the Reported Benefit:
As of August 8, 2003, 110 desktop support function employees could not be placed into the
reorganized End User Equipment and Services (EUES) organization. However, as a result of an
Internal Revenue Service (IRS) management decision, on August 10, 2003, the 110 employees
became permanent employees in their current positions and posts-of-duty. As of
November 4, 2003, 86 of these employees continued to work in the desktop support function.
We identified the desktop support function employees and their associated grade levels. To
determine the estimated annual desktop support function salary savings, we used the Federal
Government base pay chart and calculated the estimated total salaries for these individuals.
Table 1 summarizes the annual employee salaries.
             Table 1: Total Estimated Salaries for 110 Desktop Support Function Employees
              Grade Level        Number of       Base Pay at Step 5   Salaries by Grade
                                 Employees                                  Level
                  GS-5              2                 $26,566              $53,132
                  GS-6                2               $29,614              $59,228
                  GS-7                5               $32,909             $164,545
                  GS-9                6               $40,255             $241,530
                 GS-11               27               $48,708            $1,315,116
                 GS-12               32               $58,376            $1,868,032
                 GS-13               12               $69,419             $833,028
                 Totals                86                                 $4,534,611
             Source: IRS management and the Office of Personnel Management’s 2003
              General Schedule (GS) Salary Table.




                                                                                               Page 21
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

To determine the estimated total salaries and benefits, we added 23 percent for benefits to the
total salary cost savings.
  Total estimated salary costs (from above)                                     $4,534,611
  23 percent of salaries for benefits ($4,534,611 times .23)                    $1,042,961
  Total salaries and benefits for 86 desktop support function employees         $5,577,572




                                                                                           Page 22
     The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                                                   Appendix V


                                         Service Delivery Models

Appointment With Information Technology Services (ITS)
    •    For offsite individuals fewer than 25 miles away from the onsite support staff.
    •    Appointments may be scheduled with ITS technicians to provide service at a specified
         location and time (e.g., Flexi-place employee makes arrangements to meet ITS technician
         at a dispatch post-of-duty on a specific date and time to provide service).
    •    Appointments may be scheduled beyond the normal dispatch distance and may involve
         an unusual circumstance for which no other delivery method is acceptable.
    •    For use in Large Case sites (i.e., large business entities where examinations are conducted
         onsite) that will necessitate scheduling to ensure access to the sites.
Contractor
    •    For use in sites more than 25 miles from ITS onsite support.
    •    For use in sites that are difficult to travel to (e.g., inclement weather, mountainous) that
         could be fewer than 51 miles away.
    •    For use in sites where there are unique circumstances (e.g., low concentration of
         Full-Time Equivalents (FTE),1 areas where transportation is difficult).
    •    For use in major project rollouts.
    •    For use in sites with Special Needs (Section 508)2 customers.
    •    Most customers will also receive contractor support for voice infrastructure services
         (e.g., cabling).
Dispatch
     •   For customers at facilities without onsite ITS staff but close to locations with onsite staff.
     •   For use in sites within 25 miles of an ITS onsite support staff.
     •   For use at Large Case sites.




1
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year (FY) 2003, 1 FTE is equal to 2,088 staff hours. For FY 2004, 1 FTE is equal
to 2,096 staff hours.
2
  Section 508 requires that Federal agencies’ electronic and information technology is accessible to people with
disabilities. Section 508 of the Rehabilitation Act (29 U.S.C. 794d), as amended by the Workforce Investment Act
of 1998 (P.L. 105-220), August 7, 1998.
                                                                                                           Page 23
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

Drop Ship
   •   Will expedite shipment of replacement or loaner equipment to customers who cannot
       receive in-person support due to location or other circumstances such as contract
       arrangements with vendors.
   •   The helpdesk, vendors, or onsite staff can initiate drop shipments.
   •   Will be colocated with onsite staff or at an internal Rapid Fix and Delivery location.
Onsite Support
   •   Used in sites where there are more than 100 employees.
   •   An exception is for sites with fewer than 100 employees but outside the continental
       United States (e.g., Anchorage, Honolulu).
Rapid Fix and Delivery (RFD)
   •   Customers bring equipment to a specialized site for service, replacement, or upgrade.
   •   RFD sites will be colocated at sites with onsite support where it has been determined that
       the surrounding population will support this delivery model.
   •   It is the intent of the RFD to support offsite and mobile users.
Scheduled Visit
   •   ITS technician provides onsite support during a regularly scheduled visit.
   •   For use in sites more than 25 miles away from an onsite ITS location with more than
       50 and fewer than 100 employees.




                                                                                          Page 24
    The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                                   Appendix VI


                              Helpdesk Ticket Priority Codes

Priority Code Number 1:
Severe mission critical work stoppage. Impact on vital Internal Revenue Service customer
commitments of National or Areas-wide scope, affecting 20 or more users.
(4 hours to resolve)
Priority Code Number 2:
Potential work stoppage. Issue could have a direct impact on service to taxpayers, or issue’s
scope is multi-user and a work-around does not exist.
(8 hours/1 day to resolve)
Priority Code Number 3:
Work stoppage for one customer without a work-around.
(16 hours/2 days to resolve)
Priority Code Number 4:
A noncritical problem with no work stoppage and a work-around exists.
(32 hours/4 days to resolve)
Priority Code Number 5:
Request for nonproduction-related services.
(160 hours/20 days to resolve)




                                                                                          Page 25
     The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                                                  Appendix VII


                          Problem Ticket Resolution Timeliness Details

  Table 1: High-Priority Problem Ticket Resolution Timeliness (January – August 2003)
                      Priority Code 1 Problem Tickets                      Priority Code 2 Problem Tickets
   Month          Number of         Tickets Resolved Within            Number of       Tickets Resolved Within
   2003            Tickets                  4 Hours                     Tickets                8 Hours
                                     Number        Percentage                          Number            Percentage

  January              25               16               64%              141             68               48%
  February             31               24               77%              108             61               56%
   March               15               10               67%              103             53               51%
    April              27               23               85%              87              58               67%
    May                19               15               79%              68              47               69%
    June               14               11               79%              69              48               70%
    July               19               15               79%              68              49               72%
   August              12               10               83%              53              42               79%
   Totals             162              124               77%              697             426              61%
Source: The Information Technology and Asset Management System (ITAMS).

             Table 2: Problem Ticket Resolution Timeliness (January – August 2003)
             Priority Code 3 Problem Tickets   Priority Code 4 Problem Tickets      Priority Code 5 Problem Tickets
 Month      Number       Tickets Resolved      Number          Tickets Resolved     Number       Tickets Resolved
 2003         of          Within 2 Days          of             Within 4 Days         of         Within 20 Days
            Tickets   Number      Percentage   Tickets    Number       Percentage   Tickets   Number      Percentage

January       8,734      4,741       54%       10,192          6,610      65%         3,640      2,909       80%
February      7,693      4,436       58%         8,680         5,659      65%         3,036      2,393       79%
 March        9,870      5,404       55%       11,661          7,471      64%         4,217      3,420       81%
 April        8,741      4,870       56%       10,996          7,096      65%         4,136      3,100       75%
 May          7,006      4,123       59%       11,707          7,866      67%         4,387      3,549       81%
 June         6,740      3,899       58%       11,436          7,632      67%         4,465      3,693       83%
  July        7,530      4,508       60%       13,412          9,358      70%         5,447      4,517       83%
August        6,244      3,776       60%       12,234          8,407      69%         4,937      4,156       84%
 Totals      62,558     35,757      57%        90,318      60,099         67%       34,265      27,737       81%
Source: The ITAMS.




                                                                                                            Page 26
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals

                                                                Appendix VIII



              Management’s Response to the Draft Report




                                                                       Page 27
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 28
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 29
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 30
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 31
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 32
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 33
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 34
The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals




                                                                       Page 35
